MEMORANDUM FOR:                BRENDA KYLE
                               Acting Chief Financial Officer


FROM:                          JOHN J. GETEK
                               Assistant Inspector General
                                for Audit

SUBJECT:                       Implementation of DOL=s
                               Managerial Cost Accounting Process
                               Final Letter Report No. 22-01-012-13-001


This letter report evaluates the Implementation of DOL=s Managerial Cost Accounting (MCA) Process.
 Our specific objective was to evaluate the Department=s planned Cost Accounting System (CAS) and
related processes for compliance with applicable laws and regulations including the Chief Financial
Officers (CFO) Act of 1990, the Government Performance and Results Act (GPRA) of 1993, the
Government Management Reform (GMRA) Act of 1994, and the Federal Financial Management
Improvement Act (FFMIA). We conducted our review between November 2000 and January 2001 in
accordance with generally accepted government auditing standards.

This review included an assessment of the Department=s plans to implement MCA at the agency level
and a review of ongoing cost accounting pilot studies being conducted by OCFO and its contractor,
PricewaterhouseCoopers (PwC). In addition to the laws cited above, criteria for our evaluations were
obtained from the following regulations and non-authoritative guidance applicable to MCA
implementation:

-   Statement of Federal Financial Accounting Standards Number 4 (SFFAS No. 4), Managerial
    Cost Accounting Concepts and Standards for the Federal Government;
-   The Managerial Cost Accounting Implementation Guide, developed jointly by the CFO Council
    and the Joint Financial Management Improvement Program (JFMIP);
-   The JFMIP publication System Requirements for Managerial Cost Accounting; and
-   OMB Circular A-127, Financial Management Systems.

Procedures employed to gather information for the evaluations included:

-   interviews with OCFO and PwC members of the MCA implementation team;
-   review of work products produced by PwC under its contract with OCFO;
-   review of internal and external reports produced by the Department pertaining to performance
    measurement and managerial decision making; and
-   observation of meetings between the MCA implementation team and various customer agency
    personnel.

OCFO is charged with the difficult task of acting as a catalyst to ignite program manager interest in
MCA so that it will ultimately become an integral component of managerial decision making and
performance reporting. This task requires patience and special management techniques specifically
suited to the DOL environment.

Overall, we conclude that OCFO has done a commendable job with its MCA implementation efforts to
date. Specifically, our evaluation revealed that OCFO has:

-   created the Cost Analysis and Management Division to act as a central point for implementation
    efforts;
-   adequately defined the issues impacting full compliance with laws and regulations;
-   made an accurate assessment of the strengths and weaknesses of the Department=s managerial cost
    accounting information system;
-   instructed agencies to consider how frequently cost information will need to be reported in order to
    comply with the requirement for reporting on a regular basis;
-   worked effectively with those agencies that have expressed an interest in MCA; and
-   developed an effective high-level implementation plan identifying major tasks and actions needed to
    accomplish them.

MCA implementation is an evolving project that will require revisions to plans and procedures as
additional agencies and components come on board. To date, OCFO efforts have been largely related
to marketing and promoting awareness of the benefits of MCA. While some agencies have completed
pilot projects others, most notably ETA and ESA, have not made any real progress toward MCA
implementation. At this stage, the need for effective MCA project management is even more crucial.
We have noted the following items that we believe warrant OCFO attention to continue the progress
made in achieving MCA implementation throughout the Department.

Prepare a Detailed MCA Implementation Plan

OCFO/PwC have developed a AManagerial Cost Accounting Implementation Rollout Plan@ which is
strategically focused rather than a step-by-step plan. OCFO/PwC envision the development of detailed
steps at each phase of the implementation to address practical and technical issues related to specific
actions outlined in the plan. In the initial stage of MCA implementation, the plan has been a good
general reference and considers the major implementation guidance provided by the CFO Council and
JFMIP. However, as OCFO has progressed in its implementation efforts, the need for a detailed plan
has grown. As discussed in Part 2, Chapter 2 of the Managerial Cost Accounting Implementation


                                                 Page 2
Guide, a strategy involves definition of how objectives are to be accomplished and are needed to
support the objectives. The guide suggests that the strategy be documented in a plan, which is a living
document that constantly changes as the project progresses. The implementation plan should support
the management and direction of time, material, personnel and cost to meet established objectives in
time, dollars and technical results.

We recommend that the Acting Chief Financial Officer update the existing MCA plan by providing
detailed steps for each objective, preparing time lines and including plans for personnel and other
resources needed.

CFO== s Response:

While this office concurs with your recommendation, we are still in the pilot project formulation phase
with several agencies. When agencies move from the pilot phase to agency-wide implementation,
OCFO will assist them in developing detailed plans that establish a definitive business case, objective,
resource requirements, and timetable.

OIG== s Conclusion:

This recommendation is unresolved. OCFO=s response indicates that our recommendation was
directed at developing agency specific implementation detail in advance. Our recommendation actually
relates to agency-wide implementation project management and more specifically the OCFO
Managerial Cost Accounting Implementation Rollout Plan (the Plan) issued by OCFO/PwC in August
2000. The plan provides time frames for specific activities that generally should be conducted within
180 days of the beginning of the implementation effort. At the date of the CFO=s response,
approximately 200 days have passed since the plan was issued. We recommend that OCFO use the
knowledge and experience gained during those 200 days to refine the plan and increase the value of its
guidance in the future. At a minimum, OCFO should review the estimated time frames in the original
plan, determine if the planned actions have occurred, and evaluate the effects of actions taken to date to
meet the goal of Department-wide MCA implementation by the end of fiscal year 2002. If the time
frames have been met, then new major tasks should replace those stated in the original plan.

Provide Detailed Documentation of the Pilot Cost Accounting Models

The laws, regulations and implementation guidance covering MCA stress the importance of
documentation for MCA systems. For example, SFFAS No. 4, paragraph 71 states:

   AAll managerial cost accounting activities, processes and procedures should be documented by a
   manual, handbook or guidebook and should serve as a guide to users. This reference should
   outline the applicable activities, provide instructions for procedures and practices to be followed,
   list the cost accounts and subsidiary accounts related to the standard general ledger and contain

                                                  Page 3
   examples of forms and other documents used.@

We recommend that OCFO prepare this documentation for the completed pilot projects to assist in
ultimately transferring ownership to the agencies and as a model for the documentation that will be
required upon Department-wide implementation of MCA.

CFO== s Response:

This office concurs with your recommendation to prepare documentation for completed models.
However more detailed documentation, such as owners= manuals, must be agency specific and match
the activity involved in the pilots since each business case is different. In addition, an agency has the
potential to develop different applications within a program or within the agency as a whole. As
agencies move from the pilot phase to full implementation, OCFO will assist agencies in documenting
specific managerial cost accounting techniques, instructions for the techniques, source documents, and
financial data used. This process however will not result in a single model.

OIG== s Conclusion:

Based on the planned corrective actions described above, this recommendation is resolved and open
pending the development of detailed documentation of the Pilot Cost Accounting Models.

Develop a Definitive MCA Implementation Timetable for Each Agency

To date, all agencies the OCFO has contacted have agreed to work toward the implementation of
managerial cost accounting systems. Although some agencies have completed pilot projects, the
Department=s two largest agencies, ETA and ESA, have just started preliminary discussions with the
OCFO to initiate pilot projects. In the initial phases of managerial cost accounting implementation
efforts, OCFO was wise in not acting too aggressively and allowing agencies time to prepare internally
for the proper implementation approach. SFFAS No 4 as amended by SFFAS No 9 required the
implementation of MCA for all Federal agencies for fiscal periods beginning after September 30, 1997.
 However, OCFO=s implementation program has now been active for over one year and several
agencies still do not have any solid plans for developing an effective managerial cost accounting system
in order to meet the Department=s FY 2001 implementation goal. Considering the amount of time that
the implementation progress has consumed to date, in order for the Department to reach its FY 2001
implementation goal of having compliant and effective managerial cost accounting systems in place, it is
critical that OCFO determine and schedule definitive approaches for each agency within the
Department.

We recommend that OCFO prepare a definitive timetable and plan to be developed for placing the
systems into production within each agency.



                                                  Page 4
CFO== s Response:

This office concurs with your recommendation. As full implementation begins, OCFO will work with
the agencies to develop timetables for completing identified business cases, applying MCA techniques,
model building, and evaluation.

OIG== s Conclusion

Based on the planned corrective actions described above, this recommendation is resolved and open
pending the development of a definitive MCA implementation timetable for each agency.

Management's comments have been included both in their entirety after each recommendation and as an
attachment. Please provide for the unresolved recommendation, presented in the final report, a
corrective action plan as described in DLMS 8, Chapter 500, within 60 days. Please notify us when
corrective action has been completed and we will review and verify the adequacy of the corrective
actions taken. If you have any questions, please contact Mike McFadden on 693-5144.




                                                Page 5
